WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-991
Stevie England Scott Jordan, Warden |

(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the Petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© Lam filing this waiver on behalf of all respondents.

©  Lonly represent some respondents, Iam filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

© Tam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO Jam not presently a member of the Bar of this Court, Should a response be requested, the response
will be filed by a Bar member, (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543),

Signature: 7 Fishy 4b lds dia,

Date: Februa 5, 202 1

 

(Type or print) Name Emily Bedelle Lucas

   

O mr. © ws. © Mrs O Miss :
Firm (Office of the Attorney General - OO
Address 1024 Capital Center Drive. SSS —
City & State [Frankfort Kentucky oi |40601
Fm 96.592 |‘ emi uas@n.go7

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required,

Chanson Chang |
ce:
